HHS/OIG-Audit--"Audit of Administrative Costs Claimed Under Part B of the Health Insurance for the Aged and Disabled Program, (A-07-96-02001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Part B of the Health Insurance
for the Aged and Disabled Program," (A-07-96-02001)
December 31, 1996
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The final audit of administrative costs totaling $58,837,734 determined that
$4,244,570 was unallowable. Blue Cross Blue Shield claimed $4,244,570 in excess
of approved budgets, of which $258,534 was also questioned for other reasons.
This $258,534 was made up of excess executive compensation $141,554 and unallowable
cafeteria costs $116,980. We are recommending the final administrative cost
proposal be reduced by a total of $4,244,570.